how
|

OCKLE

2311 Douglas Street CA ; E-Mail Address:
Omaha, Nebraska 68102-1214 Legal B sel contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850
No. 20-72

JANET L. HIMSEL, MARTIN RICHARD HIMSEL,
ROBERT J. LANNON, AND SUSAN M. LANNON,
Petitioners,

v.

4/9 LIVESTOCK, LLC, CO-ALLIANCE, LLP,
SAMUEL T. HIMSEL, CORY M. HIMSEL,
CLINTON S. HIMSEL, and STATE OF INDIANA,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the REPLY IN SUPPORT OF
PETITION FOR A WRIT OF CERTIORARI in the above entitled case complies with the typeface
requirement of Supreme Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point
for the text and 10 point for the footnotes, and this brief contains 2896 words, excluding the parts
that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 25th day of September, 2020.
1am duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL NOTARY-State of Nebraska & Chl
RENEE J. GOSS 9 . ¢ Led tar °
Notary Public

My Comm. Exp. September 5, 2023
Affiant

 

40149
